 Department of Health and Human Services
              OFFICE OF
         INSPECTOR GENERAL




   NEW HAMPSHIRE STATE
MEDICAID FRAUD CONTROL UNIT:
     2012 ONSITE REVIEW




                         Stuart Wright
                   Deputy Inspector General for
                    Evaluation and Inspections

                         October 2012
                        OEI-02-12-00180
EXECUTIVE SUMMARY: NEW HAMPSHIRE STATE MEDICAID FRAUD CONTROL
UNIT, 2012 ONSITE REVIEW, OEI-02-12-00180

WHY WE DID THIS STUDY

The Office of Inspector General (OIG) is responsible for overseeing the activities of all Medicaid
Fraud Control Units (MFCU or Unit). As part of this oversight, OIG conducts periodic reviews
of all Units and prepares public reports based on these reviews. The reviews describe the Units’
caseloads; assess performance in accordance with the 12 MFCU performance standards; identify
any opportunities for improvement; and identify any instances of noncompliance with laws,
regulations, or policy transmittals.

HOW WE DID THIS STUDY

We based our review on an analysis of data from six sources: (1) a review of policies and
procedures and documentation on the Unit’s operations, staffing, and caseload; (2) structured
interviews with key stakeholders; (3) structured interviews with Unit staff; (4) a review of
financial documentation; (5) an onsite review of case files; and (6) an onsite review of Unit
operations.

WHAT WE FOUND

From fiscal years (FY) 2009 to 2011, the New Hampshire Unit reported recoveries of
$14 million, filed criminal charges against 25 defendants, and obtained 15 convictions. Although
the number of fraud cases opened and closed by the Unit increased during this time, the overall
number of cases opened and closed by the Unit decreased. This was due to a decrease in patient
abuse and neglect cases. The Unit attributed the overall decrease primarily to staffing limitations;
for all 3 years, the Unit’s staff levels were below the number of staff that the Unit requested and
OIG approved. Additionally, although the Unit reported that its best source of fraud referrals
was the State’s Surveillance and Utilization Review Subsystem (SURS), the Unit also noted that
the number of referrals from SURS was low. Our review also found that the Unit’s case files
lacked documentation of periodic supervisory review, and the Unit lacked annual training plans
for each of the three professional disciplines (i.e., for auditors, investigators, or attorneys). At
the same time, our review found no evidence of significant noncompliance with applicable laws,
regulations, or policy transmittals. The Unit identified as a noteworthy practice its sending a
letter to nursing facilities and assisted living facilities explaining that drug diversion is a form of
patient abuse and neglect; this letter resulted in facilities making drug diversion-related referrals
to the Unit. (Drug diversion is when facility staff members or other individuals divert residents’
prescription drugs for their own use or for sale.)

WHAT WE RECOMMEND

We recommend that the New Hampshire Unit: (1) seek to expand staff sizes to reflect the
number of staff approved in the Unit’s budget, (2) ensure that it maintains an adequate workload
through referrals from SURS, (3) ensure that case files contain documented supervisory reviews,
and (4) establish annual training plans for each professional discipline. The New Hampshire
Unit concurred with all four of our recommendations.
TABLE OF CONTENTS

Objective ......................................................................................................1
Background ..................................................................................................1
Methodology ................................................................................................3
Findings........................................................................................................6
           From fiscal years 2009 to 2011, the New Hampshire Unit
            reported recoveries of $14 million, filed criminal charges
           against 25 defendants, and obtained 15 convictions ........................6
           From fiscal years 2009 to 2011, the overall number of cases
           opened and closed by the Unit decreased.........................................6
           From fiscal years 2009 to 2011, the Unit’s staff levels were below
           the number of staff that the Unit requested and OIG approved ......... 8
           The Unit reported that its best source of fraud referrals was the
           Surveillance and Utilization Review Subsystem; however, the Unit
           also noted that the number of referrals from this source was low ..... 8
           The Unit’s case files lacked documentation of periodic supervisory
           review ...............................................................................................9
           The Unit lacked annual training plans for each of the three
           professional disciplines .....................................................................9
           Other Observations: Drug Diversion Letter ...................................10
Conclusion and Recommendations ............................................................ 11
           Unit Comments ..............................................................................13
Appendixes ................................................................................................14
           A: Performance Standards for Medicaid Fraud Control Units .....14
           B: Referrals Received by the Unit by Source, Fiscal
           Years 2009 to 2011 .........................................................................18
           C: Fraud Investigations Opened and Closed by Provider
           Category, Fiscal Years 2009 to 2011 ..............................................19
           D: Patient Abuse and Neglect Investigations Opened and
           Closed by Provider Category, Fiscal Years 2009 to 2011 ..............20
           E: Confidence Intervals for Case File Review Data .....................21
           F: Unit Comments .........................................................................22
Acknowledgments......................................................................................23
              OBJECTIVE
              To conduct an onsite review of the New Hampshire State Medicaid Fraud
              Control Unit (MFCU or Unit).

              BACKGROUND
              The mission of State MFCUs, as established by Federal statute, is to
              investigate and prosecute Medicaid provider fraud and patient abuse and
              neglect under State law. 1 Under the Medicaid statute, each State must
              maintain a certified Unit unless the Department of Health and Human
              Services (HHS) determines that operation of a Unit would not be
              cost-effective because minimal Medicaid fraud exists in that State and that
              the State has other adequate safeguards to protect Medicaid beneficiaries
              from abuse and neglect. 2 Currently 49 States and the District of Columbia
              have created such Units. 3 In fiscal year (FY) 2011, HHS and the States
              spent a combined total of $208.6 million on these Units. 4 Of this amount,
              $552,310 was spent on the New Hampshire Unit. 5
              Each Unit must employ sufficient staff consisting of at least an
              investigator, an auditor, and an attorney to carry out its duties and
              responsibilities in an effective and efficient manner. 6 The staff review
              complaints provided by the State Medicaid agency and other sources and
              determine their potential for criminal or civil prosecution. Collectively, in
              FY 2011 the 50 Units obtained 1,230 convictions as well as 906 civil
              settlements or judgments. 7 That year, the Units reported recoveries of
              $1.7 billion.8
              Units are required to have either Statewide authority to prosecute cases or
              formal procedures to refer suspected criminal violations to an office with

              1
                Social Security Act § 1903(q).
              2
                Social Security Act §§ 1902(a)(61) and 1903(q)(3). Regulations found at 42 CFR
              § 1007.11(b)(1) add that the Unit’s responsibilities may include reviewing complaints of
              misappropriation of patients’ private funds in residential health care facilities. For the
              purposes of this study, misappropriation of patient funds is combined with patient abuse
              and neglect.
              3
                North Dakota and the territories of American Samoa, Guam, the Northern Mariana
              Islands, Puerto Rico, and the U.S. Virgin Islands have not established Units. For the
              purposes of this review, we refer to the District of Columbia as a State.
              4
                The Federal fiscal year, which starts October 1 and ends September 30, is used
              throughout this report.
              5
                Office of Inspector General (OIG) analysis of Office of Management and Budget Forms
              SF-425 for FY 2011.
              6
                Social Security Act § 1903(q)(6); 42 CFR § 1007.13.
              7
                OIG, State Medicaid Fraud Control Units Fiscal Year 2011 Grant Expenditures and
              Statistics. Accessed at http://oig.hhs.gov/fraud/medicaid-fraud-control-units-
              mfcu/expenditures_statistics/fy2011.asp on June 14, 2011.
              8
                Ibid.

New Hampshire Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-02-12-00180)                       1
              such authority. 9 In New Hampshire and 43 other States, the Units are part
              of Offices of State Attorneys General; in the remaining 6 States, the Units
              are part of other State agencies. Generally, Units that are not part of
              Offices of State Attorneys General must refer cases to other offices that
              have prosecutorial authority. Additionally, each Unit must be a single
              identifiable entity of State government, distinct from the single State
              Medicaid agency, and each Unit must develop a formal agreement, e.g., a
              memorandum of understanding (MOU), that describes the Unit’s
              relationship with that agency. 10
              Oversight of the MFCU Program
              The Secretary of HHS delegated to OIG the authority both to annually
              certify the Units and to administer grant awards to reimburse States for a
              percentage of their costs in operating a certified Unit. 11 All States
              currently operating Units are reimbursed by the Federal Government on a
              75-percent matching basis, with the States required to contribute the
              remaining 25 percent. 12 In order to receive Federal reimbursement, each
              Unit must submit an initial application to OIG. 13 OIG reviews the
              application and notifies the Unit if the application is approved and the Unit
              is certified. Approval and certification is for a 1-year period; the Unit
              must be recertified each year thereafter. 14
              Under the Medicaid statute, States must operate Units that effectively
              carry out their statutory functions and meet program requirements. 15 To
              clarify the criteria that OIG applies in assessing whether a Unit is
              effectively carrying out these functions and meeting program
              requirements, OIG developed and issued 12 performance standards. 16
              Examples include maintaining an adequate caseload through referrals from
              several sources, maintaining an annual training plan for all three of the
              professional disciplines (i.e., for auditors, investigators, and attorneys),
              and establishing policy and procedure manuals to reflect the Unit’s
              operations. See Appendix A for a complete list of these performance
              standards.

              9
                Social Security Act § 1903(q)(1).
              10
                 Social Security Act § 1903(q)(2); 42 CFR § 1007.9(d).
              11
                 The portion of funds reimbursed to States by the Federal Government for its share of
              expenditures for the Federal Medicaid program, including the MFCUs, is called the
              Federal Financial Participation (FFP).
              12
                 Social Security Act § 1903(a)(6)(B).
              13
                 42 CFR § 1007.15(a).
              14
                 42 CFR §§ 1007.15(b) and (c).
              15
                 Social Security Act § 1902(a)(61).
              16
                 59 Fed. Reg. 49080 (Sept. 26, 1994). Accessed at http://oig.hhs.gov/fraud/medicaid-
              fraud-control-units-mfcu/files/Performance%20Standards.pdf on May 17, 2012. OIG
              revised these standards on June 1, 2012 (see 77 Fed. Reg. 77106). The standards referred
              to throughout this report are those from 1994, which were in effect at the time of our
              review.

New Hampshire Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-02-12-00180)                     2
              New Hampshire State MFCU
              The New Hampshire Unit is located within the Office of the
              New Hampshire Attorney General and has the authority to prosecute
              Medicaid fraud and patient abuse and neglect cases. At the time of our
              review, the Unit—one of the smallest Units in the country—had
              five employees, all of whom were located in Concord, the State’s capital.
              The Unit receives referrals of provider fraud and patient abuse and neglect
              from a variety of sources, including the State’s Surveillance and
              Utilization Review Subsystem (SURS). 17 Other sources of referrals
              include private citizens, providers, the State Long Term Care
              Ombudsman, and other State agencies. From FYs 2009 to 2011, the Unit
              received an average of 151 referrals each year. See Appendix B for a
              breakdown of the referrals received by the Unit during this period.
              When the Unit receives a referral, it determines whether to open it as a
              criminal case or as a civil case. In addition, the Unit may generate its own
              cases. Once a case is opened, the Unit may close it through civil action or
              criminal prosecution. The Unit may also close a case if there is
              insufficient evidence or by referring it to another agency.
              Previous Review
              In 2008, OIG conducted an onsite review of the New Hampshire Unit. In
              that review, OIG found no significant performance issues, but disallowed
              payments for non-Medicaid activities performed by Unit staff without
              formal approval from OIG.

              METHODOLOGY
              We based our review on an analysis of data from six sources: (1) a review
              of policies and procedures and documentation on the Unit’s operations,
              staffing, and caseload; (2) structured interviews with key stakeholders;
              (3) structured interviews with the Unit’s staff; (4) a review of financial
              documentation; (5) an onsite review of case files; and (6) an onsite review
              of Unit operations.
              We analyzed data from all six sources to describe the caseload and assess
              the performance of the Unit. We also analyzed the data to identify any
              opportunities for improvement and any instances in which the Unit did not
              fully meet the performance standards or was not operating in accordance




              17
                In all States with a MFCU, the Unit shares responsibility for protecting the integrity of
              the Medicaid program with the section of the State Medicaid agency that functions as the
              Program Integrity Unit. In New Hampshire, program integrity functions are performed
              by SURS.

New Hampshire Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-02-12-00180)                         3
              with laws, regulations, and policy transmittals. 18 Lastly, we identified any
              noteworthy practices observed during the review.
              Data Collection and Analysis
              Review of Unit documentation. We asked the Unit to provide us with its
              policies and procedures, as well as documentation on its operations,
              staffing, and caseload, including its annual reports, quarterly statistical
              reports, and responses to recertification questionnaires. We also asked the
              Unit to provide us with data describing how it detects, investigates, and
              prosecutes Medicaid cases. Data collected included information such as
              the number of referrals received by the Unit and the number of
              investigations opened and closed. We requested and reviewed these data
              for the 3-year period of FYs 2009 to 2011.
              Interviews with key stakeholders. We conducted structured interviews
              with key stakeholders who were familiar with the operations of the Unit.
              Specifically, we interviewed officials in SURS, the Bureau of Elderly and
              Adult Services, and the Special Investigations Unit, all of which are part
              of the State Department of Health and Human Services, which also houses
              the State Medicaid Agency. Additionally, we interviewed the Associate
              State Attorney General and the Special Agent in Charge for OIG’s
              Region I, which includes the State of New Hampshire.
              Interviews with Unit staff. We conducted onsite interviews with all 5 Unit
              staff, including the Unit director. We asked these staff to provide us with
              additional information needed to better understand the Unit’s operations,
              as well as to identify opportunities for improvement or practices that
              contribute to the efficiency and effectiveness of Unit operations and/or
              performance. We used information obtained from the key stakeholders
              above to develop questions for the onsite interviews with Unit staff.
              Review of financial documentation. We reviewed certain financial
              documents from the Unit, as well as the Unit’s equipment inventory and
              purchase records, to determine compliance with applicable laws and
              regulations, as well as to determine whether additional internal controls
              were needed.
              Onsite review of case files. We selected a simple random sample of
              70 case files from the Unit’s 155 cases that were open at some point
              during FYs 2009 to 2011. We reviewed all 70 of these case files to check
              for documentation of supervisory approval for the opening and closing of
              cases, to check for documented periodic supervisory reviews, and to assess
              the Unit’s processes for monitoring the status and outcomes of cases.


              18
                All relevant regulations, statutes, and policy transmittals are available online at
              http://oig.hhs.gov/fraud/medicaid-fraud-control-units-mfcu/index.asp.

New Hampshire Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-02-12-00180)                       4
              Onsite review of Unit operations. While onsite, we reviewed the Unit’s
              operations, including its process for receiving referrals, its electronic case
              management system, its method for case file storage and security, and its
              general operations.
              Standards
              This study was conducted in accordance with the Quality Standards for
              Inspection and Evaluation issued by the Council of the Inspectors General
              on Integrity and Efficiency.




New Hampshire Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-02-12-00180)            5
              FINDINGS
              From FYs 2009 to 2011, the New Hampshire Unit
              reported recoveries of $14 million, filed criminal
              charges against 25 defendants, and obtained
              15 convictions
              From FYs 2009 to 2011, the New Hampshire Unit obtained monetary
              settlements and court orders requiring the payment of $14.2 million in
              civil recoveries and $100,000 in criminal restitution and fines. (See
              Table 1.) During this 3-year period, the Unit filed criminal charges against
              25 defendants, of which 22 were charged with patient abuse and neglect
              and 3 were charged with provider fraud. The Unit also obtained
              15 convictions. 19 Of these convictions, 13 involved patient abuse and
              neglect.

                   Table 1: Criminal and Civil Case Outcomes from FYs 2009 to 2011

                   Type                                 FY 2009           FY 2010        FY 2011           TOTAL

                   Amounts Ordered to Pay
                   Resulting From Criminal           $47,809.68        $31,148.17     $21,104.00      $100,061.85
                   Cases

                   Amounts Ordered to Pay
                                                  $4,448,009.55     $6,092,628.75   $3,687,368.95   $14,228,007.25
                   Resulting From Civil Cases

                   Total Amounts Ordered to
                                                  $4,495,819.23     $6,123,776.92   $3,708,472.95   $14,328,069.10
                   Pay

                     Source: OIG analysis of New Hampshire MFCU data, 2012.




              From FYs 2009 to 2011, the overall number of cases
              opened and closed by the Unit decreased
              According to performance standard 6, the Unit should maintain a
              continuous case flow. As noted earlier, when the Unit receives a referral,
              it determines whether to open it as a criminal case or as a civil case.
              Although the number of fraud cases opened by the Unit increased from
              FYs 2009 to 2011, the overall number of cases opened by the Unit
              decreased during this time, from 47 to 31. This overall decrease was due
              to a decrease in the number of patient abuse and neglect cases opened by
              the Unit, from 28 in FY 2009 to 5 in FY 2011. (See Table 2.) Within this
              category of cases, the largest decline occurred among patient funds cases,


              19
                These 15 convictions are not necessarily derived from the 25 criminal charges filed
              during the same period. Some of these convictions may have derived from criminal
              charges that occurred prior to the 3-year period. Similarly, not all of the criminal charges
              from this 3-year period may have resulted in convictions during this period.

New Hampshire Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-02-12-00180)                                 6
              which involve the misappropriation of patients’ private funds in residential
              health care facilities and are considered a form of patient abuse and
              neglect. In FY 2009, the Unit opened 21 patient funds cases, whereas in
              FY 2011 it opened only 4 such cases.

                Table 2: Cases Opened from FYs 2009 to 2011, by Type*

                Type of Investigation                           FY 2009        FY 2010   FY 2011

                Fraud                                                 19           19        26
                Patient Abuse and Neglect                             28           21         5
                Total                                                 47           40        31
                  *Includes only new cases opened during the FY.
                  Source: OIG analysis of New Hampshire MFCU data, 2012.




              Like the overall number of cases opened by the Unit, the overall number
              of cases closed by the Unit decreased from FYs 2009 to 2011, from 40 to
              35, respectively, despite an increase in the number of fraud cases closed.
              As with the decline in cases opened, the overall decline in cases closed
              resulted from a decrease in the number of patient abuse and neglect cases
              closed. In FY 2009, the Unit closed 24 patient abuse and neglect cases,
              compared to 9 such cases in FY 2011. (See Table 3.) The largest decline
              in cases closed during this 3-year period occurred among cases involving
              patient funds. In FY 2009, the Unit closed 20 patient funds cases, as
              opposed to 7 such cases in FY 2011. See Appendixes C and D for
              information about the Unit’s cases by provider category.

                Table 3: Cases Closed from FYs 2009 to 2011, by Type

                Type of Investigation                           FY 2009        FY 2010   FY 2011

                Fraud                                                 16           27        26
                Patient Abuse and Neglect                             24           30         9
                Total                                                 40           57        35
                   Source: OIG analysis of New Hampshire MFCU data, 2012   .


              The Unit director explained that in mid-2010, the Unit became more
              selective in opening certain patient funds cases because of staffing
              limitations. Historically, in instances of suspected misuse of patient funds,
              the Unit had investigated persons not employed at nursing facilities or
              assisted living facilities—such as family members serving as fiduciaries—
              when facilities referred such cases. These cases were often resolved
              civilly. The Unit director explained that State law gives facilities the same
              civil enforcement powers as the Unit to investigate fiduciary conduct,
              adding, “[W]e wanted to preserve our resources for investigating criminal
              allegations of abuse, neglect and financial exploitation.” He also noted

New Hampshire Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-02-12-00180)                    7
              that before 2010, patient funds cases represented a disproportionately large
              share of the Unit’s caseload mix; to provide more balance, the director
              decided to shift the Unit’s focus to fraud referrals.

              From FYs 2009 to 2011, the Unit’s staff levels were
              below the number of staff that the Unit requested and
              OIG approved
              According to performance standard 2, the Unit should maintain staff levels
              in accordance with staffing allocations approved in its budget. As a part
              of its oversight role, OIG approves the number of staff requested by the
              State in its annual budget. At the time of our review, the Unit—one of the
              smallest in the country—had only five employees: two attorneys (one of
              whom was the director), one auditor, one investigator, and one legal
              assistant. For each year during the review period, the Unit’s staff level
              was below the number of staff that the Unit requested and OIG approved.
              From FYs 2009 to 2011, OIG approved eight staff members, but the Unit
              employed only six in FY 2009 and five in FYs 2010 and 2011. According
              to one staff member, “We’ve lost some senior staff over the last few years.
              We’re really down on staff now and it’s very difficult.” Another staff
              member agreed, “Our biggest limitation is our staff size.”

              The Unit reported that its best source of fraud referrals
              was SURS; however, the Unit noted that the number of
              referrals from this source was low
              According to performance standard 4, the Unit should take steps to ensure
              that it maintains an adequate workload through referrals from the single
              State agency and other sources. As noted earlier, the Unit receives fraud
              referrals from a variety of sources, including the State Medicaid Agency,
              which houses the SURS unit. Identifying potential fraud through analysis
              of Medicaid data is a statutory responsibility of SURS, and the Unit is
              highly dependent on SURS for referrals generated by this data analysis. 20
              Although the Unit director reported that the Unit’s best source of
              high-quality fraud referrals was SURS, he acknowledged that the number
              of fraud referrals from SURS was lower than he would have liked. The
              Unit received seven fraud referrals from SURS in FY 2009, two in
              FY 2010, and four in FY 2011. Data provided by SURS showed that of
              these 13 referrals, only 2 came from analysis of claims data. One Unit
              staff member noted that the State legislature’s aggressive move to
              managed care—and the need to adapt the State’s computer system to meet

              20
                According to 42 CFR § 1007.19(e)(2), Units do not have the authority to claim FFP for
              analysis of patterns of practice to identify situations in which a question of fraud may
              exist; they are therefore limited to relying on referrals from SURS’ analysis of data.

New Hampshire Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-02-12-00180)                     8
              different needs—has affected SURS’ ability to generate referrals through
              analysis of Medicaid data, adding: “[W]e would like for them to have a
              good system so we can have better referrals.”

              The Unit’s cases files lacked documentation of
              periodic supervisory review
              According to performance standard 6, the Unit should complete cases
              within a reasonable timeframe, and as a part of this effort, supervisors
              should approve the opening and closing of cases and document any
              supervisory case reviews in the case file. All but one of the case files we
              reviewed included an opening memorandum signed by the Unit director,
              and all of the closed case files we reviewed included a closing
              memorandum signed by the Unit director. However, most files—
              94 percent—lacked documentation of periodic supervisory review
              between the case’s opening and closing. 21 Although staff reported that
              supervisory case reviews occur on a regular basis, they acknowledged that
              these reviews were not always documented in the case files. See
              Appendix E for confidence intervals.

              The Unit lacked annual training plans for each of the
              three professional disciplines
              According to performance standard 12, the Unit should establish an annual
              training plan for each of the three professional disciplines. While all of
              the Unit’s professional staff members reported being allowed to attend one
              out-of-state training event per year, the Unit had not established an annual
              training plan for each professional discipline. Although staff members
              reported attending training when possible and maintaining their licensure
              through continuing professional education, they highlighted several
              obstacles to attending training, including the lack of relevant local training
              opportunities, the need for State approval of costs, and the cost of time
              spent away from work to attend trainings. For example, one staff member
              noted, “In such a small unit, it becomes such a burden to attend some
              trainings and to be out of the office for that long, so the training you attend
              has to be really worth it.”




              21
                Of the 70 case files we reviewed, 18 were for multi-State cases that—because they
              involved the National Association of Medicaid Fraud Control Units—were worked on
              primarily by the Unit director. Because the Unit director was the only supervisor in the
              Unit, we excluded these 18 case files from our analysis of documented periodic
              supervisory review. Of the remaining 52 case files, only 3 included documentation of
              periodic supervisory review.

New Hampshire Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-02-12-00180)                          9
              Other Observations: Drug Diversion Letter
              The Unit identified as a noteworthy practice its sending a letter to nursing
              facilities and assisted living facilities explaining that drug diversion 22 is a
              form of patient abuse and neglect; this letter resulted in facilities making
              drug diversion-related referrals to the Unit. According to the Unit
              director, “Back in 2005 and 2006, [the Vermont Unit] was getting a lot of
              drug diversion cases and we were not, so we sent a letter to all facilities [in
              our State]. We then saw an uptick in the number of drug diversion cases
              referred to us.” The director explained that over time, however, the
              number of incoming drug diversion referrals began to wane as facility
              administrators changed. In response to this, the Unit reported during our
              onsite review that it was in the process of sending another drug diversion
              letter to nursing facilities and assisted living facilities throughout the State
              to ensure that such cases are reported. A supervisor at the Bureau of
              Elderly and Adult Services, a State agency that works with the Unit, also
              noted the effectiveness of the letter: “I think this letter is a very good idea
              and that it will result in more cases of abuse and neglect coming forward.”




              22
                Drug diversion is when facility staff members or other individuals divert residents’
              prescription drugs for their own use or for sale.

New Hampshire Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-02-12-00180)                        10
              CONCLUSION AND RECOMMENDATIONS
              From FYs 2009 to 2011, the New Hampshire Unit reported recoveries of
              $14 million, filed criminal charges against 25 defendants, and obtained
              15 convictions. Although the number of fraud cases opened and closed by
              the Unit increased during this time, the overall number of cases opened and
              closed by the Unit decreased. This overall decrease was due to a decrease
              in patient abuse and neglect cases. The Unit attributed the overall decrease
              primarily to staffing limitations; for all 3 years, the Unit’s staff levels were
              below the number that the Unit requested and OIG approved. Additionally,
              although the Unit reported that SURS was its best source of fraud referrals,
              the Unit also noted that the number of referrals from SURS was low.
              Our review also found that the Unit’s case files lacked documentation of
              periodic supervisory review, and that the Unit lacked annual training plans
              for each of the three professional disciplines. At the same time, our review
              found no evidence of significant noncompliance with applicable laws,
              regulations, or policy transmittals. The Unit identified as a noteworthy
              practice its sending a letter to nursing facilities and assisted living
              facilities explaining that drug diversion is a form of patient abuse and
              neglect; this letter resulted in facilities making drug diversion-related
              referrals to the Unit.
              We recommend that the New Hampshire Unit:
              Seek to expand staff sizes to reflect the number of staff
              approved in the Unit’s budget
              The Unit should seek to maintain staff levels in accordance with staffing
              allocations requested by the Unit and approved by OIG.
              Work with SURS to ensure that the Unit maintains an adequate
              number of referrals
              The Unit should work with SURS and, if necessary, request that specific
              data analysis be undertaken to ensure that the Unit receives an adequate
              number of fraud referrals from SURS.
              Ensure that case files contain documented supervisory
              reviews
              The Unit should develop a means of documenting its regular supervisory
              case file reviews and ensure that this documentation is included in the case
              file.




New Hampshire Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-02-12-00180)              11
              Establish annual training plans for each professional
              discipline
              The Unit should develop formal training plans that indicate the type and
              duration of training expected each year for employees in each professional
              discipline.




New Hampshire Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-02-12-00180)       12
              UNIT COMMENTS
              The New Hampshire Unit concurred with all four of our recommendations
              and noted that each of its responses to the recommendations has been
              implemented or is in the process of being implemented.
              The Unit concurred with our recommendation to expand its staff to reflect
              the number approved in the Unit’s budget. The Unit reported that it is
              currently exploring the possibility of expanding the Unit’s investigative
              staff by adding a second investigator in the next budget cycle.
              The Unit also concurred with our recommendation to work with SURS to
              ensure that the Unit maintains an adequate number of referrals. The Unit
              reported that it is committed to building on the successful collaboration
              with SURS by instituting monthly meeting and providing cross-training
              opportunities for staff. The Unit is also undertaking a review of the
              referral form and process.
              The Unit concurred with our recommendation to ensure that case files
              contain documented supervisory reviews. The Unit noted that on the basis
              of the guidance provided during the onsite review visit, it created and
              implemented a procedure for documenting supervisory case reviews.
              The Unit concurred with our recommendation to establish annual training
              plans for each professional discipline. The Unit agreed that its policy and
              procedures manual does not include a formal training plan for each
              discipline but noted that every effort is made to offer all professional staff
              at least one training course per year. The Unit added that the director has
              conferred with other MFCU directors to identify best practices in this area
              and is in the process of developing a formal training policy and plan for
              each discipline for inclusion in the Unit’s policy and procedures manual.
              The full text of the Unit’s comments is provided in Appendix F. We did not
              make any changes to the report as a result of the Unit’s comments.




New Hampshire Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-02-12-00180)            13
APPENDIX A
Performance Standards for Medicaid Fraud Control Units
[59 Fed. Reg. 49080, Sept. 26, 1994]
1. A Unit will be in conformance with all applicable statutes, regulations, and policy
   transmittals. In meeting this standard, the Unit must meet, but is not limited to, the
   following requirements:
   a. The Unit professional staff must consist of permanent employees working
      full-time on Medicaid fraud and patient abuse matters.
   b. The Unit must be separate and distinct from the single State Medicaid agency.
   c. The Unit must have prosecutorial authority or an approved formal procedure for
      referring cases to a prosecutor.
   d. The Unit must submit annual reports, with appropriate certifications, on a timely
      basis.
   e. The Unit must submit quarterly reports on a timely basis.
   f. The Unit must comply with the Americans with Disabilities Act, the Equal
      Employment opportunity requirements, the Drug Free workplace requirements,
      Federal lobbying restrictions, and other such rules that are made conditions of the
      grant.
2. A Unit should maintain staff levels in accordance with staffing allocations
   approved in its budget. In meeting this standard, the following performance
   indicators will be considered:
   a. Does the Unit employ the number of staff that was included in the Unit’s budget
      as approved by [the Office of Inspector General (OIG)]?
   b. Does the Unit employ the number of attorneys, auditors, and investigators that
      were approved in the Unit’s budget?
   c. Does the Unit employ a reasonable size of professional staff in relation to the
      State’s total Medicaid program expenditures?
   d. Are the Unit office locations established on a rational basis and are such locations
      appropriately staffed?
3. A Unit should establish policies and procedures for its operations, and maintain
   appropriate systems for case management and case tracking. In meeting this
   standard, the following performance indicators will be considered:
   a. Does the Unit have policy and procedure manuals?
   b. Is an adequate, computerized case management and tracking system in place?




New Hampshire Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-02-12-00180)           14
4. A Unit should take steps to ensure that it maintains an adequate workload
    through referrals from the single State agency and other sources. In meeting this
    standard, the following performance indicators will be considered:
   a. Does the Unit work with the single State Medicaid agency to ensure adequate
      fraud referrals?
   b. Does the Unit work with other agencies to encourage fraud referrals?
   c. Does the Unit generate any of its own fraud cases?
   d. Does the Unit ensure that adequate referrals of patient abuse complaints are
      received from all sources?
5. A Unit’s case mix, when possible, should cover all significant provider types. In
   meeting this standard, the following performance indicators will be considered:
   a. Does the Unit seek to have a mix of cases among all types of providers in the
      State?
   b. Does the Unit seek to have a mix of Medicaid fraud and Medicaid patient abuse
      cases?
   c. Does the Unit seek to have a mix of cases that reflect the proportion of Medicaid
      expenditures for particular provider groups?
   d. Are there any special Unit initiatives targeting specific provider types that affect
      case mix?
   e. Does the Unit consider civil and administrative remedies when appropriate?
6. A Unit should have a continuous case flow, and cases should be completed in a
   reasonable time. In meeting this standard, the following performance indicators will
   be considered:
   a. Is each stage of an investigation and prosecution completed in an appropriate time
      frame?
   b. Are supervisors approving the opening and closing of investigations?
   c. Are supervisory reviews conducted periodically and noted in the case file?
7. A Unit should have a process for monitoring the outcome of cases. In meeting this
   standard, the following performance indicators will be considered:
   a. The number, age, and type of cases in inventory.
   b. The number of referrals to other agencies for prosecution.
   c. The number of arrests and indictments.
   d. The number of convictions.
   e. The amount of overpayments identified.
   f. The amount of fines and restitution ordered.

New Hampshire Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-02-12-00180)              15
   g. The amount of civil recoveries.
   h. The numbers of administrative sanctions imposed.
8. A Unit will cooperate with OIG and other Federal agencies, whenever
   appropriate and consistent with its mission, in the investigation and prosecution
   of health care fraud. In meeting this standard, the following performance indicators
   will be considered:
   a. Does the Unit communicate effectively with OIG and other Federal agencies in
      investigating or prosecuting health care fraud in their State?
   b. Does the Unit provide OIG regional management, and other Federal agencies,
      where appropriate, with timely information concerning significant actions in all
      cases being pursued by the Unit?
   c. Does the Unit have an effective procedure for referring cases, when appropriate,
      to Federal agencies for investigation and other action?
   d. Does the Unit transmit to OIG, for purposes of program exclusions under
      section 1128 of the Social Security Act, reports of convictions, and copies of
      Judgment and Sentence or other acceptable documentation within 30 days or
      other reasonable time period?
9. A Unit should make statutory or programmatic recommendations, when
   necessary, to the State government. In meeting this standard, the following
   performance indicators will be considered:
   a. Does the Unit recommend amendments to the enforcement provisions of the
      State’s statutes when necessary and appropriate to do so?
   b. Does the Unit provide program recommendations to single State agency when
      appropriate?
   c. Does the Unit monitor actions taken by State legislature or State Medicaid agency
      in response to recommendations?
10. A Unit should periodically review its memorandum of understanding (MOU)
    with the single State Medicaid agency and seek amendments, as necessary, to
    ensure it reflects current law and practice. In meeting this standard, the following
    performance indicators will be considered:
   a. Is the MOU more than 5 years old?
   b. Does the MOU meet Federal legal requirements?
   c. Does the MOU address cross-training with the fraud detection staff of the State
      Medicaid agency?
   d. Does the MOU address the Unit’s responsibility to make program
      recommendations to the Medicaid agency and monitor actions taken by the
      Medicaid agency concerning those recommendations?


New Hampshire Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-02-12-00180)          16
11. The Unit director should exercise proper fiscal control over the Unit resources.
    In meeting this standard, the following performance indicators will be considered:
   a. Does the Unit director receive on a timely basis copies of all fiscal and
      administrative reports concerning Unit expenditures from the State parent
      agency?
   b. Does the Unit maintain an equipment inventory?
   c. Does the Unit apply generally accepted accounting principles in its control of Unit
      funding?
12. A Unit should maintain an annual training plan for all professional disciplines.
    In meeting this standard, the following performance indicators will be considered:
   a. Does the Unit have a training plan in place and funds available to fully implement
      the plan?
   b. Does the Unit have a minimum number of hours training requirement for each
      professional discipline, and does the staff comply with the requirement?
   c. Are continuing education standards met for professional staff?
   d. Does the training undertaken by staff aid in the mission of the Unit?




New Hampshire Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-02-12-00180)          17
APPENDIX B
Referrals Received by the Unit by Source, Fiscal Years 2009 to 2011

                             Fiscal Year (FY)
                                                             FY 2010           FY 2011   FYs 2009 to 2011
                                        2009

         Source                      Patient                 Patient           Patient           Patient
                                      Abuse                   Abuse             Abuse             Abuse
                            Fraud                 Fraud                Fraud             Fraud
                                        and                     and               and               and
                                     Neglect                 Neglect           Neglect           Neglect
Surveillance and
Utilization Review              7          0             2        0       4         0       13            0
Subsystem (SURS)
Medicaid agency (other
                                4         12             0        0       0         0        4        12
than SURS)
State survey and
                                1          3             0        0       1         0        2            3
certification

Other State agencies            2          6             1        6       2         0        5        12

Licensing boards                1          0             1        0       2         0        4            0

Law enforcement
                                3          1             6        1       4         1       13            3
agencies
Health and Human
Services Office of              2          0             4        0       1         0        7            0
Inspector General (OIG)
Prosecutor                      1          0             0        0       0         0        1            0
Providers                       1         28             4       26       4         7        9        61

Provider associations           0          9             1       11       0         0        1        20

Private health insurers         0          0             0        0       0         0        0            0

Ombudsman                       1          7             2        4       0         0        3        11

Adult Protective Services       2          7             1        4       0         0        3        11

Private citizens               48          3         85           4      91         1     224             8
Medicaid Fraud Control
                                1          1             0        0       0         0        1            1
Unit (MFCU) hotline
Other                           6          5             5        1       3         2       14            8

Total referrals
                               80         82        112          57     112        11     304        150
received by the Unit

Source: OIG analysis of New Hampshire MFCU data, 2012.




New Hampshire Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-02-12-00180)                      18
APPENDIX C
Fraud Investigations Opened and Closed by Provider Category, Fiscal
Years 2009 to 2011

                                   Fiscal Year (FY)
Provider Category                                                  FY 2010                 FY 2011       FYs 2009 to 2011
                                              2009

Facilities                      Opened      Closed     Opened       Closed     Opened       Closed     Opened     Closed
Hospitals                              2          1           1           1           1           2          4         4
Nursing facilities                     0          0           1           1           0           0          1         1
Other long-term care
                                       0          0           0           0           0           0          0         0
facilities
Substance abuse treatment
                                       0          0           0           0           0           0          0         0
centers
Other facilities                       0          0           0           0           2           1          2         1
Practitioners                   Opened      Closed     Opened       Closed     Opened       Closed     Opened     Closed
Doctors of medicine or
                                       0          1           0          0            2           0          2         1
osteopathy
Dentists                               1          1           1           4           1           1          3         6
Podiatrists                            0          0           0           0           0           0          0         0
Optometrists and opticians             0          0           0           0           0           0          0         0
Counselors and
                                       1          3           1           2           1           0          3         5
psychologists
Chiropractors                          0          0           0           0           0           0          0         0
Other practitioners                    2          0           1           3           0           0          3         3
Medical Support                 Opened      Closed     Opened       Closed     Opened       Closed     Opened     Closed
Pharmacies                             0          2           1           1           1           1          2         4
Pharmaceutical
                                       9          4           9          11           6          11          24        26
manufacturers
Suppliers of durable medical
                                       0          0           0           2           1           0           1         2
equipment and/or supplies
Laboratories                           1          1           0           0           0           0          1         1
Transportation services                0          0           2           1           4           2          6         3
Home health care agencies              1          1           2           1           6           7          9         9
Home health care aides                 0          0           0           0           0           0          0         0
Nurses, physician assistants,
nurse practitioners, and               1          1           0           0           1           1          2         2
certified nurse aides
Radiologists                           0          0           0           0           0           0          0         0
Other medical support                  0          0           0           0           0           0          0         0
Program Related                 Opened      Closed     Opened       Closed     Opened       Closed     Opened     Closed
Managed care                           0          0           0           0           0           0          0         0
Medicaid program
                                       1          1           0           0           0           0          1         1
administration
Billing company                        0          0           0           0           0           0          0         0
Other program related                  0          0           0           0           0           0          0         0
Total, All Provider
                                     19          16          19          27          26          26          64        69
Categories
     Source: Office of Inspector General analysis of New Hampshire Medicaid Fraud Control Unit data, 2012.




New Hampshire Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-02-12-00180)                                   19
APPENDIX D
Patient Abuse and Neglect Investigations Opened and Closed by Provider
Category, Fiscal Years 2009 to 2011

                               Fiscal Year (FY)
Provider Category                                              FY 2010                FY 2011        FYs 2009 to 2011
                                          2009

                           Opened       Closed     Opened       Closed     Opened      Closed     Opened       Closed
Nursing facility                  1           0           1           2          0           0            2        2
Nondirect care                    0           0           0           0          0           0            0        0
Other long-term care              1           0           0           1          0           0            1        1
Nurses, physician
assistants, nurse
                                  7           5           2           4          1           2            10      11
practitioners, and
certified nurse aides
Home health care aides            0           0           0           1          0           0            0        1
Other                            19          19          18         22           4           7            41      48
Total                            28          24          21         30           5           9            54      63

  Source: Office of Inspector General analysis of New Hampshire Medicaid Fraud Control Unit data, 2012.




New Hampshire Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-02-12-00180)                                    20
APPENDIX E
Confidence Intervals for Case File Review Data
We estimated the following 3 population values for all 155 case files from the results of
our review of the 70 case files selected in our simple random sample. The table below
includes the estimate descriptions, sample sizes, point estimates, and 95-percent
confidence intervals for these 3 estimates.


Table E-1: Confidence Intervals for Case File Review Data

                                               Sample
 Data Element Description                                   Point Estimate        95-Percent Confidence Interval
                                                 Size

 Case files that included an opening
 memorandum signed by the Unit                       70                98.6%                            92.3%–100%
 director

 Case files that included a closing
 memorandum signed by the Unit                       61                100%                             94.8%–100%
 director

 Case files that lacked documentation
 of periodic supervisory review                     52*                94.2%                           84.1%–98.8%
 between case opening and closing

 *Of the 70 case files reviewed, 18 were for multi-State cases that—because they involved the National Association of
 Medicaid Fraud Control Units—were worked on primarily by the Unit director. Because the Unit director was the only
 supervisor in the Unit, we excluded these 18 case files from our analysis of documented periodic supervisory review.

 Source: Office of Inspector General analysis of New Hampshire Medicaid Fraud Control Unit case files, 2012.




New Hampshire Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-02-12-00180)                                         21
APPENDIX F
Unit Comments




New Hampshire Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-02-12-00180)   22
New Hampshire Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-02-12-00180)   23
New Hampshire Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-02-12-00180)   24
               Conclusion

               The New Hampshire MFCU appreciates the efforts of H!-IS-OJG and the consultations
        provided by the Onsite Review. We remain committed to meeting and exceeding the standards
        for Medicaid Fraud Control Units despite noted obstacles. We understand and conntr with the
        recommendations, all of which will be implemented in a manner consistent with our mission.

                                                   Respectfully submitted,

                                                       /S/
                                                   Karin Eckel
                                                   Assistant Attomey General
                                                   Director. Medi caid Fraud Control Unit




New Hampshire Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-02-12-00180)                       25
              ACKNOWLEDGMENTS
              This report was prepared under the direction of Jodi Nudelman, Regional
              Inspector General for Evaluation and Inspections in the New York regional
              office, and Nancy Harrison and Meridith Seife, Deputy Regional
              Inspectors General.
              Vincent Greiber served as the team leader for this study. Other Office of
              Evaluation and Inspections staff from the New York regional office who
              conducted the study include Hailey Davis. Central office staff who
              provided support include Thomas Brannon, Kevin Farber, and
              Christine Moritz. Office of Investigations staff who contributed to the
              report include Colleen Fleming. Office of Management and Policy staff
              who contributed to the report include Alexis Lynady.




New Hampshire Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-02-12-00180)           26
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
